1a
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
——————————
No. 19-1774
STACEY MOONEY,
Plaintiff-Appellant,
v.
ILLINOIS EDUCATION ASSOCIATION, et al.,
Defendants-Appellees.
——————————
Appeal from the United States District Court for the
Central District of Illinois.
No. 1:18-cv-1439-JBM — Joe Billy McDade, Judge.
——————————
ARGUED SEPTEMBER 20, 2019 — DECIDED NOVEMBER 5, 2019
——————————
Before WOOD, Chief Judge, and MANION and
ROVNER, Circuit Judges.
WOOD, Chief Judge. Stacey Mooney is a public-school
teacher in Eureka (Illinois) Community School District
#140. She is not a member of respondent Illinois Educa-

2a
tion Association (“IEA”), the union that serves as the exclusive representative of her employee unit in collective
bargaining with the school district. From the time she
started as a public employee until June 2018, the District
deducted from her paycheck and sent to the union a fairshare fee that contributed to the costs incurred by the
union in its labor-management activities. Both the Illinois Public Relations Act, 5 ILCS § 315/6, and existing
Supreme Court precedent, Abood v. Detroit Bd. of
Educ., 431 U.S. 209 (1977), authorized this fee arrangement.
That state of aﬀairs came to an end when, in Janus v.
AFSCME, Council 31, 138 S. Ct. 2448 (2018), the Supreme Court overruled Abood and announced that compulsory fair-share fee arrangements violate the First
Amendment rights of persons who would prefer not to
associate with the union that represents their employee
unit. 138 S. Ct. at 2460. Following Janus, state employers in Illinois immediately ceased deducting fair-share
fees from the paychecks of nonmembers of public sector
unions.
Mooney filed suit in the Central District of Illinois on
behalf of herself and a putative class of similarly situated
persons, seeking restitution pursuant to 42 U.S.C. § 1983
for the fees that had been deducted from her pay prior to
Janus. The district court entered judgment for IEA on
April 23, 2019, dismissing Mooney’s claims with prejudice. In so doing, it joined the consensus across the country concluding that unions that collected fair-share fees
prior to Janus, in accordance with state law and Abood,
are entitled to assert a good-faith defense to section 1983
liability.

3a
We heard oral argument on Mooney’s case on September 20, 2019, in conjunction with Janus v. AFSCME,
No. 19-1553. We now aﬃrm the judgment of the district
court, largely for the reasons set forth in our opinion of
today’s date in Janus v. AFSCME, No. 19-1553.
We write briefly here to address one diﬀerence between the claim brought by Mooney and that brought by
Mark Janus. On remand from the Supreme Court, Mr.
Janus sought damages pursuant to 42 U.S.C. § 1983 in
the amount of the fair-share fees he had paid prior to
Janus. Mooney, in contrast, insists that she is not seeking damages, but instead that she is entitled to the equitable remedy of restitution under the same statute.
From the point of view of the union, the two requests are
identical: each one seeks a refund of the fees that the
plaintiﬀ paid under the ancien régime. Mooney, however, believes that there is something special about restitution that is outcome-determinative. Perhaps that is true
in some situations, but as we now explain, in substance
Mooney is also seeking damages, and so her claim must
fail.
Section 1983 allows for remedies either at law or in
equity. 42 U.S.C. § 1983 (“. . . [covered persons] shall be
liable to the party injured in an action at law, suit in equity, or other proper proceeding for redress. . .”). The
district court has discretion to tailor an appropriate remedy for the constitutional violation. See Bell v. Hood, 327
U.S. 678, 684 (1946) (“[I]t is also well settled that where
legal rights have been invaded, and a federal statute
provides for a general right to sue for such invasion, federal courts may use any available remedy to make good
the wrong done.”); Lieberman v. Univ. of Chicago, 660
F.2d 1185, 1193 (7th Cir. 1981) (“[F]ederal courts have

4a
the role of providing broad and flexible remedies for violations of federal statutory and constitutional rights.”).
Mooney would like us to regard her requested relief
as restitutionary in nature. She believes that even if she
concedes that a good-faith defense protects the union
against a damages award, an equitable demand for restitution cannot be defeated on good-faith grounds. She argues that there is nothing unfair about requiring the union to return monies that, according to Janus, should
never have been deducted from her paychecks in the
first place. In fact, she concludes, the union would receive a windfall based on its violations of her constitutional rights if no restitution were ordered.
IEA responds that Mooney is simply playing with labels, and that calling her claim equitable, or one for restitution, does not make it so. In substance, IEA says,
Mooney’s suit is exactly the same as Mr. Janus’s: one for
damages flowing from a First Amendment violation. The
gravamen of Mooney’s complaint is that her First
Amendment rights were violated by the fair-share requirement because she was compelled to furnish financial support to union activities with which she disagreed.
As have all other district courts that have faced this
question, the court here agreed with IEA’s position. It
concluded that “Plaintiff’s claim lies in law rather than
equity, and there is consequently no reason to consider
whether the good-faith defense applies where the claim
is for equitable restitution.” See also, e.g., Carey v.
Inslee, 364 F. Supp. 3d 1220 (W.D. Wash. 2019), appeal
pending, No. 19-35290 (9th Cir.); Crockett v. NEAAlaska, 367 F. Supp. 3d 996 (D. Alaska 2019), appeal
pending, No. 19-35299 (9th Cir.); Babb v. California
Teachers Ass’n, 378 F. Supp. 3d 857 (C.D. Cal. 2019); Al-

5a
len v. Santa Clara Cnty. Correctional Peace Officers
Ass’n, 2019 WL 4302744 (E.D. Cal. Sept. 11, 2019).
The characterization of Mooney’s claim presents a legal question on which our consideration is de novo. That
said, we agree with the district court’s analysis, which
finds ample support in the law. Indeed, many years ago
we held that a claim for a refund of an agency-fee overcharge under the Abood regime was a legal rather than
an equitable claim. Gilpin v. Am. Fed’n of State, Cnty., &
Mun. Employees, AFL-CIO, 875 F.2d 1310, 1314 (7th
Cir. 1989) (citing Dobbs, Handbook on the Law of Remedies 224 (1973) (“The damages recovery is to compensate the plaintiff, and it pays him, theoretically, for his
losses. The restitution claim, on the other hand, is not
aimed at compensating the plaintiff, but at forcing the
defendant to disgorge benefits that it would be unjust for
him to keep.”)). But see Laramie v. Cnty. of Santa
Clara, 784 F. Supp. 1492, 1501–02 (N.D. Cal. 1992) (labeling a refund of nonchargeable fees under the Abood
regime as restitution).
Furthermore, as the Supreme Court explained in
Montanile v. Bd. of Trustees of Nat. Elevator Indust.
Health Benefit Plan, 136 S. Ct. 651 (2016), “restitution in
equity typically involved enforcement of a ‘constructive
trust or an equitable lien, where money or property identified as belonging in good conscience to the plaintiff
could clearly be traced to particular funds or property in
the defendant’s possession.’” Id. at 657 (citing GreatWest Life & Annuity Ins. Co. v. Knudson, 534 U.S. 204,
217 (2002)). Where a plaintiff seeks “recovery from the
beneficiaries’ assets generally” because her specific
property has dissipated or is otherwise no longer traceable, the claim “is a legal remedy, not an equitable one.”

6a
Id. at 658 (emphasis in original) (internal quotation
marks omitted).
Mooney is bringing just such a claim — that is, one
against the union’s treasury generally, not one against
an identifiable fund or asset. She attempts to escape this
conclusion with the argument that the entire treasury is
an identifiable fund against which she can pursue an equitable lien, but that proves too much. Every defendant
will always have a “fund” consisting of all of its assets,
but that is not what the Supreme Court was talking
about in Great-West Life and Montanile. It is not
enough that Mooney’s fees once contributed to IEA’s
overall assets. According to Montanile, she must point to
an identifiable fund and show that her fees specifically
are still in the union’s possession. 136 S. Ct. at 657–59.
This she has not done. Her claim is against the general
assets of the union, held in its treasury, and can only be
characterized as legal.
In substance, then, Mooney’s claim is one for damages. For the reasons we set forth in more detail in Janus
v. AFSCME, No. 19-1553, decided today, we AFFIRM the
district court’s judgment.
MANION, Circuit Judge, concurring. I concur with
the court’s ultimate conclusion. I write separately here
for the same reason I write separately in Janus v.
AFSCME, Council 31, No. 19-1553, also decided today.
Janus II recognized Abood gave unions a windfall for 41
years. But Janus II also implied unions need not disgorge this windfall.

7a
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
——————————
No. 19-1553
MARK JANUS,
Plaintiff-Appellant,
v.
AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31; AFL-CIO, et al.,
Defendants-Appellees,
and
KWAME RAOUL, in his official capacity as Attorney
General of the State of Illinois,
Intervenor-Defendant-Appellee.
——————————
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:15-cv-1235 — Robert W. Gettleman, Judge.
——————————
ARGUED SEPTEMBER 20, 2019 — DECIDED NOVEMBER 5, 2019
——————————
Before WOOD, Chief Judge, and MANION and
ROVNER, Circuit Judges.

8a
WOOD, Chief Judge. For 41 years, explicit Supreme
Court precedent authorized state-government entities
and unions to enter into agreements under which the unions could receive fair-share fees from nonmembers to
cover the costs incurred when the union negotiated or
acted on their behalf over terms of employment. Abood
v. Detroit Bd. of Educ., 431 U.S. 209 (1977). To protect
nonmembers’ First Amendment rights, fair-share fees
could not support any of the union’s political or ideological activities. Relying on Abood, more than 20 states created statutory schemes that allowed the collection of
fair-share fees, and public-sector employers and unions
in those jurisdictions entered into collective bargaining
agreements pursuant to these laws.
In 2018, the Supreme Court reversed its prior position and held that compulsory fair-share or agency fee
arrangements impermissibly infringe on employees’
First Amendment rights. Janus v. AFSCME, Council
31, 138 S. Ct. 2448, 2461 (2018). The question before us
now is whether Mark Janus, an employee who paid fairshare fees under protest, is entitled to a refund of some
or all of that money. We hold that he is not, and so we
aﬃrm the judgment of the district court.
I
A. History of Agency Fees
Before turning to the specifics of the case before us,
we think it useful to take a brief tour of the history behind agency fees. This provides useful context for our
consideration of Mr. Janus’s claim and the system he
challenged.

9a
The principle of exclusive union representation lies at
the heart of our system of industrial relations; it is
reflected in both the Railway Labor Act (“RLA”), 45
U.S.C. §§ 151–165 (first enacted in 1926), and the National Labor Relations Act (“NLRA”), 29 U.S.C. §§ 151–
169 (first enacted in 1935). In its quest to provide for “industrial peace and stabilized labor-management relations,” Congress authorized employers and labor organizations to enter into agreements under which employees
could be required either to be union members or to contribute to the costs of representation — so-called “agency-shop” arrangements. See 29 U.S.C. §§ 157, 158(a)(3);
45 U.S.C. § 152 Eleventh. Unions designated as exclusive
representatives were (and still are) obligated to represent all employees, union members or not, “fairly, equitably, and in good faith.” H.R. Rep. No. 2811, 81st Cong.,
2d Sess., p. 4.
In Railway Employment Dep’t v. Hanson, 351 U.S.
225 (1956), a case involving the RLA, the Supreme Court
held that “the requirement for financial support of the
collective-bargaining agency by all who receive the
benefits of its work is within the power of Congress under the Commerce Clause and does not violate either the
First or the Fifth Amendments.” Id. at 231. In approving
agency-shop arrangements, the Court said, “Congress
endeavored to safeguard against [the possibility that
compulsory union membership would impair freedom of
expression] by making explicit that no conditions to
membership may be imposed except as respects ‘periodic
dues, initiation fees, and assessments.’ ” Id. Hanson thus
held that the compulsory payment of fair-share fees did
not contravene the First Amendment.

10a
Several years later, in Int’l Ass’n of Machinists v.
Street, 367 U.S. 740 (1961), the Court discussed the careful balancing of interests reflected in the RLA, observing
that “Congress did not completely abandon the policy of
full freedom of choice embodied in the [RLA], but rather
made inroads on it for the limited purposes of eliminating the problems created by the ‘free rider.’ ” Id. at 767.
The Court reaﬃrmed the lawfulness of agency-shop arrangements while cautioning that unions could receive
and spend nonmembers’ fees only in accordance with the
terms “advanced by the unions and accepted by Congress [to show] why authority to make union shop
agreements was justified.” Id. at 768. Legitimate expenditures were limited to those designed to cover “the
expenses of the negotiation or administration of collective agreements, or the expenses entailed in the adjustment of grievances and disputes.” Id. The Court left the
question whether state public agencies were similarly
empowered under state law to enter into agency-shop
arrangements for another day.
That day came on May 23, 1977, when the Supreme
Court issued its opinion in Abood. 431 U.S. 209. There, a
group of public-school teachers challenged Michigan’s
labor relations laws, which were broadly modeled on federal law. Id. at 223. Michigan law established an exclusive representation scheme and authorized agency-shop
clauses in collective bargaining agreements between
public-sector employers and unions. Id. at 224. The
Court upheld that system, stating that “[t]he desirability
of labor peace is no less important in the public sector,
nor is the risk of ‘free riders’ any smaller,” id., and that
“[t]he same important government interests recognized
in the Hanson and Street cases presumptively support

11a
the impingement upon associational freedom created by
the agency shop here at issue.” Id. at 225. It recognized
that “government may not require an individual to relinquish rights guaranteed him by the First Amendment as
a condition of public employment.” Id. at 233–34. Nonetheless, it said that a public employee has no “weightier
First Amendment interest than a private employee in
not being compelled to contribute to the costs of exclusive union representation,” id. at 229, and thus concluded
that “[t]he diﬀerences between public- and private-sector
collective bargaining simply do not translate into diﬀerences in First Amendment rights.” Id. at 232.
The correct balance, according to Abood, was to
“prevent[] compulsory subsidization of ideological activities by employees who object thereto without restricting
the Union’s ability to require every employee to contribute to the cost of collective-bargaining activities.” Id. at
237. And for four decades following Abood, courts, state
public-sector employers, and unions followed this path.
See, e.g., Locke v. Karass, 555 U.S. 207 (2009); Lehnert v.
Ferris Faculty Ass’n, 500 U.S. 507 (1991); Chicago
Teachers Union v. Hudson, 475 U.S. 292 (1986); Ellis v.
Railway Clerks, 466 U.S. 435 (1984). Agency-shop arrangements, the Court repeatedly held, were consistent
with the First Amendment and validly addressed the
risk of free riding. See Comm’cns Workers of America v.
Beck, 487 U.S. 735, 762 (1988) (“Congress enacted the
two provisions for the same purpose, eliminating ‘free
riders,’ and that purpose dictates our construction of
§ 8(a)(3) . . . .”); Ellis, 466 U.S. at 447, 452, 456 (referring
in three places to the free-rider concern); see also
Lehnert, 500 U.S. at 556 (Scalia, J., concurring).

12a
In time, however, the consensus on the Court began
to fracture. Beginning in Knox v. Serv. Emps. Int’l Union, 567 U.S. 298 (2012), the rhetoric changed. Abood began to be characterized as an “anomaly,” and the Court
started paying more attention to the “significant impingement on First Amendment rights” Abood allowed
and less to the balancing of employees’ rights and unions’
obligations. Id. at 310–11. Building on Knox, Harris v.
Quinn criticized the reasoning in Hanson and Abood as
“thin,” “questionable,” and “troubling.” 573 U.S. 616,
631–35 (2014). Harris worried that Abood had “failed to
appreciate the conceptual diﬃculty of distinguishing between union expenditures that are made for collectivebargaining purposes and those that are made to achieve
political ends” and to anticipate “the practical administrative problems that would result.” Id. at 637. The Harris Court also suggested that “[a] union’s status as exclusive bargaining agent and the right to collect an agency fee from non-members are not inextricably linked.”
Id. at 649.
Nonetheless, and critically for present purposes,
these observations did not lead the Court in Harris to
overrule Abood. Informed observers thought that Abood
was on shaky ground, but it was unclear whether it
would weather the storm, be restricted, or be overturned
in its entirety. That uncertainty continued after the
Court signaled its intention to revisit the issue in Friedrichs v. California Teachers Ass’n, 135 S. Ct. 2933
(2015), which wound up being aﬃrmed by an equally divided Court. 136 S. Ct. 1083 (2016).
B. Janus’s Case
Plaintiﬀ Mark Janus was formerly a child-support
specialist employed by the Illinois Department of

13a
Healthcare and Family Services. Through a collective
bargaining agreement between Illinois’s Department of
Central Management Services (“CMS”) (which handles
human resources tasks for Illinois’s state agencies) and
defendant American Federation of State, County and
Municipal Employees (“AFSCME”), Council 31,
AFSCME was designated as the exclusive representative of Mr. Janus’s employee unit. Mr. Janus exercised
his right not to join the union. He also objected to CMS’s
withholding $44.58 from his paycheck each month to
compensate AFSCME for representing the employee
unit in collective bargaining, grievance processing, and
other employment-related functions.
Initially, however, Mr. Janus was not involved in this
litigation. The case began instead when the thengovernor of Illinois challenged the Illinois Public Labor
Relations Act (“IPLRA”), which established an exclusive
representation scheme and authorized public employers
and unions to enter into collective bargaining agreements that include a fair-share fee provision. 5 ILCS
§ 315/6. Under that law, a union designated as the exclusive representative of an employee unit was “responsible
for representing the interests of all public employees in
the unit,” whether union members or not, § 315/6(d).
Fair-share fees were earmarked to compensate the union for costs incurred in “the collective bargaining process, contract administration and pursuing matters
aﬀecting wages, hours and conditions of employment.”
§ 315/6(e).
The district court dismissed the governor for lack of
standing, but at the same time it permitted Mr. Janus
(and some others) to intervene as plaintiﬀs. Mr. Janus
asserted that the state’s compulsory fair-share scheme

14a
violated the First Amendment. He recognized that
Abood stood in his way, but he argued that Abood was
wrongly decided and should be overturned by the high
court. Although the lower courts that first considered his
case rejected his position on the ground that they were
bound by Abood, see Janus v. AFSCME, Council 31, 851
F.3d 746, 747–48 (7th Cir. 2017) (“Janus I”), Janus preserved his arguments and then, as he had hoped, the Supreme Court took the case.
This time, the Court overruled Abood. Janus, 138 S.
Ct. at 2486 (“Janus II”). It held that agency-shop arrangements that require nonmembers to pay fair-share
fees and thereby “subsidize private speech on matters of
substantial public concern,” are inconsistent with the
First Amendment rights of objectors, no matter what
interest the state identifies in its authorizing legislation.
138 S. Ct. at 2460. This is so, the Court explained, because “the First Amendment does not permit the government to compel a person to pay for another party’s
speech just because the government thinks that the
speech furthers the interests of the person who does not
want to pay.” Id. at 2467.
Several aspects of the Court’s opinion are relevant to
Mr. Janus’s current claim for damages. First, the Court
characterized the harm inflicted by the agency-fee arrangement as “compelled subsidization of private
speech,” 138 S. Ct. at 2464, whereby “individuals are coerced into betraying their convictions,” id. It was not
concerned in the abstract with the deduction of money
from employees’ paychecks pursuant to an employment
contract. Rather, the problem was the lack of consent
(where it existed) to the use of that money — i.e. to support the union’s representation work. In other words, the

15a
case presented a First Amendment speech issue, not one
under the Fifth Amendment’s Takings clause.
The Court found that any legitimate interest
AFSCME had in those fees had to yield to the objecting
employees’ First Amendment rights. In so doing, it rejected the approach to free riding that earlier opinions
had taken, holding to the contrary that “avoiding free
riders is not a compelling interest” and thus Illinois’s
statute could not withstand “exacting scrutiny.” 138 S.
Ct. at 2466. Yet it came to that conclusion only after
weighing the costs and benefits to a union of having exclusive representative status: on the one hand, the union
incurs the financial burden attendant to the requirement
to provide fair representation even for nonmembers who
decline to contribute anything to the cost of its services;
on the other hand, even with payments of zero from objectors, the union still enjoys the power and attendant
privileges of being the exclusive representative of an
employee unit. The Court’s analysis focused on the union
rather than the nonmembers: the question was whether
requiring a union to continue to represent those who do
not pay even a fair-share fee would be suﬃciently inequitable to establish a compelling interest, not whether requiring nonmembers to contribute to the unions would
be inequitable.
Nor did the Court hold that Mr. Janus has an unqualified constitutional right to accept the benefits of union representation without paying. Its focus was instead
on freedom of expression. That is why it said only that
the state may not force a person to pay fees to a union
with which she does not wish to associate. But if those
unions were not designated as exclusive representatives
(as they are under 5 ILCS §§ 315/6 and 315/9), there

16a
would be no obligation to act in the interests of nonmembers. The only right the Janus II decision recognized is
that of an objector not to pay any union fees. This is not
the same as a right to a free ride. Free-riding is simply a
consequence of exclusivity; drop the duty of fair representation, and the union would be free to cut oﬀ all services to the nonmembers.
Finally, the Court did not specify whether its decision
was to have retroactive eﬀect. The language it used, to
the extent that it points any way, suggests that it was
thinking prospectively: “Those unconstitutional exactions cannot be allowed to continue indefinitely,” 138 S.
Ct. at 2486; “States and public-sector unions may no
longer extract agency fees from nonconsenting employees,” id; “This procedure violates the First Amendment
and cannot continue,” id. In the end, however, the Court
remanded the case to the district court for further proceedings, in particular those related to remedy. Id. at
2486.
C. District Court Proceedings
The most immediate eﬀect of the Court’s Janus II
opinion was CMS’s prompt cessation of its collection of
fees from Mr. Janus and all other nonmembers of the
union, and thus the end of AFSCME’s receipt of those
monies. That relief was undoubtedly welcome for those
such as Mr. Janus who fundamentally disagree with the
union’s mission, but matters did not stop there. Still relying on 42 U.S.C. § 1983 for his right of action, Mr. Janus
followed up on the Court’s decision with a request for
damages from AFSCME in the amount of all fairshare
fees he had paid. The State of Illinois joined the litigation
as an intervenor-defendant in support of AFSCME.

17a
The district court entered summary judgment for
AFSCME and Illinois on March 18, 2019. Janus v.
AFSCME, Council 31, No. 15 C 1235, 2019 WL 1239780
(N.D. Ill. Mar. 18, 2019) (“Janus III”). It began with the
observation that in 1982, the Supreme Court held that
private defendants could in some circumstances act “under color of state law” for purposes of section 1983 by
participating in state-created procedural schemes. Lugar
v. Edmondson Oil Co., Inc., 457 U.S. 922, 941–42 (1982).
Although such private defendants are not entitled to the
identical immunity defenses that apply to public defendants, the Court later indicated, they may be entitled to
an aﬃrmative defense based on good faith or probable
cause. Wyatt v. Cole, 504 U.S. 158, 169 (1992) (“Wyatt
I”). Noting that “every federal appellate court that has
considered the good-faith defense [to a damages action]
has found that it exists for private parties,” the court followed that rule and found that the defense applies here.
The key question, it said, is whether the defendant’s reliance on an existing law was in good faith. Given the fact
that “the statute on which defendant relied had been
considered constitutional for 41 years,” it found good
faith. In so doing, it rejected the idea that earlier intimations from the Court that Abood ought to be overruled
undermined the necessary good faith. Accordingly, it
held that Mr. Janus was not entitled to damages.
Mr. Janus timely filed a notice of appeal on March 27,
2019. We heard oral argument in both Mr. Janus’s appeal and a related case, Mooney v. Ill. Educ. Ass’n, No.
19-1774, on September 20, 2019. The predicate for each
case is the same — the Supreme Court’s decision in Janus II — but whereas Mr. Janus seeks damages from the
union, Mooney insists that her claim lies in equity and is

18a
one for restitution. As we explain in more detail in a separate opinion filed in Mooney, we find no substantive
diﬀerence in the two theories of relief, and so much of
what we have to say here also applies to Mooney’s case.
II
This appeal presents only questions of law. Accordingly, we review the district court’s grant of summary
judgment in favor of AFSCME de novo. Mazzai v. RockN-Around Trucking, Inc., 246 F.3d 956, 959 (7th Cir.
2001).
A. Retroactivity
We begin with the question whether Janus II is retroactive. If it is not, that is the end of the line for Mr. Janus, because the union’s collection of fair-share fees was
expressly permitted by state law and Supreme Court
precedent from the time he started his covered work until the Court’s decision, which all agree marked the end
of his payments. If it is, then we must reach additional
questions that also bear on the proper resolution of the
case. As we noted earlier, the Supreme Court’s opinion
did not address retroactivity in so many words.
Mr. Janus relies primarily on Harper v. Virginia
Dep’t of Taxation, 509 U.S. 86 (1993), for the proposition
that “a rule of federal law, once announced and applied
to the parties to the controversy, must be given full retroactive eﬀect by all courts adjudicating federal law.” Id.
at 97; see also Reynoldsville Casket Co. v. Hyde, 514 U.S.
749, 752 (1995) (“Harper. . . held that, when (1) the Court
decides a case and applies the (new) legal rule of that
case to the parties before it, then (2) it and other courts
must treat that same (new) legal rule as ‘retroactive,’ applying it, for example, to all pending cases, whether or

19a
not those cases involve predecision events.”). Mr. Janus’s
assertion is that all Supreme Court cases, without exception, “must be applied retroactively.” AFSCME responds that “[i]t is not at all clear, in the first place, that
the Supreme Court’s decision in this case is to be applied
retroactively.”
We agree with AFSCME that the rules of retroactivity are not as unbending as Mr. Janus postulates. Even
in Harper, the Court said only that its “consideration of
remedial issues meant necessarily that we retroactively
applied the rule we announced . . . to the litigants before
us.” 509 U.S. at 99. Right and remedy are two diﬀerent
things, and the Court has taken great pains to evaluate
them separately. See, e.g., Franklin v. Gwinnett Cnty.
Pub. Schs., 503 U.S. 60, 65–66 (1992) (“As we have often
stated, the question of what remedies are available under
a statute that provides a private right of action is ‘analytically distinct’ from the issue of whether such a right exists in the first place.”).
Retroactivity poses some knotty problems. The Supreme Court disapproved of what it called “selective
prospectivity” in Harper (that is, application of the new
rule to the party before the court but not to all others
whose cases were pending), but it did not close the door
on “pure prospectivity” — i.e., wholly prospective force,
equally inapplicable to the parties in the case that announces the rule and all others — as used in Lemon v.
Kurtzman, 411 U.S. 192 (1973) (“Lemon II”). In that
case, after invalidating a Pennsylvania program permitting nonpublic sectarian schools to be reimbursed for
secular educational services, see Lemon v. Kurtzman,
403 U.S. 602 (1971) (“Lemon I”), the Court aﬃrmed a
district court order permitting the state to reimburse the

20a
schools for all services performed up to the date of Lemon I. Lemon II, 411 U.S. at 194. One could argue that
similar reliance interests on the part of AFSCME and
the state argue for pure prospectivity here.
On the other hand, in later decisions the Supreme
Court has stated that the “general practice is to apply
the rule of law we announce in a case to the parties before us . . . even when we overrule a case.” Agostini v.
Felton, 521 U.S. 203, 237 (1997). Only when there is
“grave disruption or inequity involved in awarding retrospective relief to the petitioner” does the option of pure
prospectivity come into play. Ryder v. United States, 515
U.S. 177, 184–85 (1995). See also Suesz v. Med-1 Sols.,
LLC, 757 F.3d 636, 650 (7th Cir. 2014) (en banc).
Rather than wrestle the retroactivity question to the
ground, we think it prudent to assume for the sake of argument that the right recognized in Janus II should indeed be applied to the full sweep of people identified in
Harper (that is, Mr. Janus himself and all others whose
cases were in the pipeline at the time of the Court’s decision). That appears also to be the approach the district
court took. We thus turn to the broader question whether Mr. Janus is entitled to the remedy he seeks.
B. Requirements under Section 1983
Section 1983 supports a civil claim against “every
person who, under color of any statute . . . of any State
. . . subjects, or causes to be subjected, any citizen of the
United States . . . to the deprivation of any rights, privileges, or immunities secured by the Constitution and
laws.” 42 U.S.C. § 1983.

21a
1. AFSCME is a “person” that can be sued
To be liable under section 1983 a defendant must be a
“person” as Congress used that term. While “person” is
a broad word, the Supreme Court has held that states do
not fall within its compass. See Will v. Michigan Dep’t of
State Police, 491 U.S. 58 (1989). But it is hard to find
other exclusions. The union, as an unincorporated organization, is a suable “person,” and we are satisfied that it
is suﬃciently like other entities that have been sued under section 1983 to permit this action. Compare Monell
v. Dep’t of Soc. Servs. of City of New York, 436 U.S. 658,
690 (1978) (municipalities and other local government
units are “persons” for purposes of section 1983); Walsh
v. Louisiana High School Athletic Ass’n, 616 F.2d 152,
156 (5th Cir. 1980) (voluntary association of schools);
Frohwerk v. Corr. Med. Servs., 2009 WL 2840961 (N.D.
Ind. Sept. 1, 2009) (prison contractors). Cf. Citizens
United v. Fed. Election Comm’n, 558 U.S. 310 (2010).
2. AFSCME acted “under color of” state law
The next question is whether AFSCME acted under
color of state law. Unions generally are private organizations. See, e.g., Hallinan v. Fraternal Order of Police of
Chi. Lodge No. 7, 570 F.3d 811, 815 (7th Cir. 2009).
Nonetheless, private actors sometimes fall within the
statute. See Lugar, 457 U.S. at 935. Indeed, the “color of
law” requirement for section 1983 is more expansive
than, and wholly encompasses, the “state action” requirement under the Fourteenth Amendment. Id. For
our purposes, the analysis is the same — if AFSCME’s
receipt from CMS of the fair-share fees is attributable to
the state, then the “color of law” requirement is satisfied.

22a
A “procedural scheme created by . . . statute obviously is the product of state action” and “properly may be
addressed in a section 1983 action.” Id. at 941. “[W]hen
private parties make use of state procedures with the
overt, significant assistance of state oﬃcials, state action
may be found.” Tulsa Prof’l Collection Servs., Inc. v.
Pope, 485 U.S. 478 (1988); see also Apostol v. Landau,
957 F.2d 339, 343 (7th Cir. 1992). Here, AFSCME was a
joint participant with the state in the agency-fee arrangement. CMS deducted fair-share fees from the employees’ paychecks and transferred that money to the
union, which then spent it on authorized labormanagement activities pursuant to the collective bargaining agreement. This is suﬃcient for the union’s conduct to amount to state action. We therefore conclude
that AFSCME is a proper defendant under section 1983.
C. Statute of Limitations
Mr. Janus’s claim is also timely under the applicable
statute of limitations. Section 1983 does not have its own
organic statute of limitations but rather borrows the
state statute of limitations for personal-injury actions.
Wilson v. Garcia, 471 U.S. 261, 279 (1985). In Illinois,
this is two years. 735 ILCS § 5/13–202. “The claim accrues when the plaintiﬀ knows or should know that his or
her constitutional rights have been violated.” Draper v.
Martin, 664 F.3d 1110, 1113 (7th Cir. 2011).
In this case, the statute began running on the date of
the Supreme Court’s decision in Janus II: June 27, 2018.
Mr. Janus neither knew nor should have known any earlier that his constitutional rights were violated, because
before then it was the settled law of the land that the
contrary was true. Thus, his suit is timely.

23a
III
A. Existence of Good-faith Defense
We now turn to the ultimate question in this case: to
what remedy or remedies is Mr. Janus entitled? As the
Supreme Court wrote in Davis v. United States, 564 U.S.
229 (2011), retroactivity and remedy are distinct questions. “Retroactive application does not . . . determine
what ‘appropriate remedy’ (if any) the defendant should
obtain.” Id. at 243; see also American Trucking Ass’ns,
Inc. v. Smith, 496 U.S. 167, 189 (1990) (plurality opinion)
(“[T]he Court has never equated its retroactivity principles with remedial principles. . ..”). It thus does not necessarily follow from retroactive application of a new rule
that the defendant will gain the precise type of relief she
seeks. See Powell v. Nevada, 511 U.S. 79, 84 (1994). To
the contrary, the Supreme Court has acknowledged that
the retroactive application of a new rule of law does not
“deprive[] respondents of their opportunity to raise . . .
reliance interests entitled to consideration in determining the nature of the remedy that must be provided.”
James B. Beam Distilling Co. v. Georgia, 501 U.S. 529,
544 (1991).
Sometimes the law recognizes a defense to certain
types of relief. An example that comes readily to mind is
the qualified immunity doctrine, which is available for a
public employee if the asserted constitutional right that
she violated was not clearly established. See, e.g., Ashcroft v. al-Kidd, 563 U.S. 731 (2011). We must decide
whether a union may raise any such defense against its
liability for the fair-share fees it collected before Janus
II.
This is a matter of first impression in our circuit. But,
as the district court noted, every federal appellate court

24a
to have decided the question has held that, while a private party acting under color of state law does not enjoy
qualified immunity from suit, it is entitled to raise a
good-faith defense to liability under section 1983. See
Clement v. City of Glendale, 518 F.3d 1090, 1096–97 (9th
Cir. 2008); Pinsky v. Duncan, 79 F.3d 306, 311–12 (2d
Cir. 1996); Vector Research, Inc. v. Howard & Howard
Attorneys P.C., 76 F.3d 692, 698–99 (6th Cir. 1996); Jordan v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d
1250, 1275–78 (3d Cir. 1994); Wyatt v. Cole, 994 F.2d
1113, 1118–21 (5th Cir. 1993) (“Wyatt II”).
Mr. Janus takes issue with this consensus position.
He points to the text of section 1983, which we grant
says nothing about immunities or defenses. That, he contends, is the end of the matter. “Shall be liable to the
party injured” is mandatory language that, in his view,
allows for no exceptions. The problem with such an absolutist position, however, is that the Supreme Court
abandoned it long ago, when it recognized that liability
under section 1983 is subject to common-law immunities
that apply to all manner of defendants.
The Court discussed that history in Wyatt I, where it
noted that despite the bare-bones text of section 1983, it
had “accorded certain government oﬃcials either absolute or qualified immunity from suit if the tradition of
immunity was so firmly rooted in the common law and
was supported by such strong policy reasons that Congress would have specifically so provided had it wished to
abolish the doctrine.” 504 U.S. at 163–64 (quoting Owen
v. City of Independence, 445 U.S. 622, 637 (1980)) (internal quotation marks omitted). In Wyatt I, the Court had
to decide how far its immunity jurisprudence reached,
and specifically, whether private parties acting under

25a
color of state law would have been able, at the time section 1983 was enacted (in 1871), to invoke the same immunities that public oﬃcials had. (That is more than a bit
counterfactual, as the Court did not recognize this type
of private liability until 1982, but we put that to one side.)
Surveying its immunity jurisprudence, including Mitchell v. Forsyth, 472 U.S. 511 (1985), Harlow v. Fitzgerald,
457 U.S. 800 (1982), Wood v. Strickland, 420 U.S. 308
(1975), and Pierson v. Ray, 386 U.S. 547 (1967), the
Court “conclude[ed] that the rationales mandating
qualified immunity for public oﬃcials are not applicable
to private parties.” 504 U.S. at 167.
The Court recognized that this outcome risked leaving private defendants in the unenviable position of being just as vulnerable to suit as public oﬃcials, per Lugar, but not protected by the same immunity. Id. at 168.
But, critically for AFSCME, the Court pointed toward
the solution to that problem. It distinguished between
defenses to suit and immunity from suit, the latter of
which is more robust, in that it bars recovery regardless
of the merits. Id. at 166. It then confirmed that its ruling
rejecting qualified immunity did “not foreclose the possibility that private defendants faced with § 1983 liability
under [Lugar] could be entitled to an aﬃrmative defense
based on good faith and/or probable cause or that § 1983
suits against private, rather than governmental, parties
could require plaintiﬀs to carry additional burdens.”
Wyatt I, 504 U.S. at 169.
Mr. Janus rejects the line that the Court drew between qualified immunity and a defense to liability; he
sees it as nothing but a labeling game. But Wyatt I directly refutes this criticism. Adding to the language
above from the majority, Justice Kennedy, in concur-

26a
rence, explained why a defense on the merits might be
available for private parties even if immunity is not. “By
casting the rule as an immunity, we imply the underlying
conduct was unlawful, a most debatable proposition in a
case where a private citizen may have acted in good-faith
reliance upon a statute.” 504 U.S. at 173 (Kennedy, J.,
concurring). The distinction between an immunity and a
defense is one of substance, not just nomenclature, and
“is important because there is support in the common
law for the proposition that a private individual’s reliance
on a statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law.”
Id. at 174; see also Lugar, 457 U.S. at 942 n.23 (“Justice
Powell is concerned that private individuals who innocently make use of seemingly valid state laws would be
responsible, if the law is subsequently held to be unconstitutional, for the consequences of their actions. In our
view, however, this problem should be dealt with not by
changing the character of the cause of action but by establishing an aﬃrmative defense.”).
The Wyatt I Court remanded the case to the Fifth
Circuit, which decided that the “question left open by the
majority” — whether a good-faith defense is available in
section 1983 actions — “was largely answered” in the
aﬃrmative by the five concurring and dissenting justices.
Wyatt II, 994 F.2d at 1118. The court accordingly held
“that private defendants sued on the basis of Lugar may
be held liable for damages under § 1983 only if they
failed to act in good faith in invoking the unconstitutional
state procedures, that is, if they either knew or should
have known that the statute upon which they relied was
unconstitutional.” Id.

27a
Other circuits followed suit. In Jordan, the Third
Circuit noted “the [Supreme Court’s] statement [in Wyatt I] that persons asserting section 1983 claims against
private parties could be required to carry additional
burdens, and the statements in Lugar which warn us
[that] a too facile extension of section 1983 to private
parties could obliterate the Fourteenth Amendment’s
limitation to state actions that deprive a person of constitutional rights and the statutory limitation of section
1983 actions to claims against persons acting under color
of law.” 20 F.3d at 1277 (cleaned up). Those considerations, the court said, lead to the conclusion that “‘good
faith’ gives state actors a defense that depends on their
subjective state of mind, rather than the more demanding objective standard of reasonable belief that governs
qualified immunity.” Id. The Sixth Circuit concurred in
Vector Research, 76 F.3d at 699, as did the Ninth Circuit
in Clement, 518 F.3d at 1096–97. Most recently, in a case
decided after Harris v. Quinn, the Second Circuit allowed a good-faith defense to a section 1983 claim for reimbursement of agency fees paid prior to decision. Jarvis v. Cuomo, 660 F. App’x 72, 75–76 (2d Cir. 2016).
Mr. Janus pushes back against these decisions with
the argument that there is no common-law history before 1871 of private parties enjoying a good-faith defense
to constitutional claims. As we hinted earlier, however,
the reason is simple: the liability of private parties under
section 1983 was not clearly established until, at the earliest, the Court’s decision in United States v. Price, 383
U.S. 787 (1966). For nearly 100 years, nothing would
have prompted the question.
We now join our sister circuits in recognizing that,
under appropriate circumstances, a private party that

28a
acts under color of law for purposes of section 1983 may
defend on the ground that it proceeded in good faith. The
final question is whether that defense is available to
AFSCME.
B. Good-faith Defense for AFSCME
Although this is a new question for us, we note that
every district court that has considered the precise question before us — whether there is a good-faith defense to
liability for payments collected before Janus II — has
answered it in the aﬃrmative.1 While those views are not
binding on us, the unanimity of opinion is worth noting.
See Hamidi v. SEIU Local 1000, 2019 WL 5536324 (E.D. Cal.
Oct. 25, 2019); LaSpina v. SEIU Pennsylvania State Council,
2019 WL 4750423 (M.D. Pa. Sept. 30, 2019); Casanova v. International Ass’n of Machinists, Local 701, No. 1:19-cv-00428,
Dkt. #22 (N.D. Ill. Sept. 11, 2019); Allen v. Santa Clara Cty.
Correctional Peace Officers Ass’n, 2019 WL 4302744 (E.D. Cal.
Sept. 11, 2019); Ogle v. Ohio Civil Serv. Emp. Ass’n, 2019 WL
3227936 (S.D. Ohio July 17, 2019), appeal pending, No. 19-3701
(6th Cir.); Diamond v. Pennsylvania State Educ. Ass’n, 2019
WL 2929875 (W.D. Pa. July 8, 2019), appeal pending, No. 192812 (3d Cir.); Hernandez v. AFSCME California, 386 F. Supp.
3d 1300 (E.D. Cal. 2019); Doughty v. State Employee’s Ass’n,
No. 1:19-cv-00053PB (D.N.H. May 30, 2019), appeal pending,
No. 19-1636 (1st Cir.); Babb v. California Teachers Ass’n, 378 F.
Supp. 3d 857 (C.D. Cal. 2019); Wholean v. CSEA SEIU Local
2001, 2019 WL 1873021 (D. Conn. Apr. 26, 2019), appeal pending, No. 19-1563 (2d Cir.); Akers v. Maryland Educ. Ass’n, 376
F. Supp. 3d 563 (D. Md. 2019), appeal pending, No. 19-1524 (4th
Cir.); Bermudez v. SEIU Local 521, 2019 WL 1615414 (N.D.
Cal. Apr. 16, 2019); Lee v. Ohio Educ. Ass’n, 366 F. Supp. 3d 980
(N.D. Ohio 2019), appeal pending, No. 19-3250 (6th Cir.); Hough
v. SEIU Local 521, 2019 WL 1274528 (N.D. Cal. Mar. 20, 2019),
amended, 2019 WL 1785414 (N.D. Cal. Apr. 16, 2019), appeal
pending, No. 19-15792 (9th Cir.); Crockett v. NEA-Alaska, 367
F. Supp. 3d 996 (D. Alaska 2019), appeal pending, No. 19-35299
(continued…)
1.

29a
The first task we have under Wyatt I is to identify
the “most closely analogous tort” to which we should
turn for guidance. 504 U.S. at 164 (citations and internal
quotation marks omitted). Arguing in some tension with
his statute-of-limitations position, Mr. Janus says that
his claim lacks any common law analogue. His back-up
position is that good faith is pertinent only if the underlying oﬀense has a state-of-mind element, and he asserts
that the most analogous tort in his case lacks such an element.
Mr. Janus compares the First Amendment violation
in his case to conversion. But that analogy does not work,
at least with regard to the state’s deduction of fair-share
fees and its transfer of those fees to the union. Conversion requires an intentional and serious interference with
“the right of another to control” a chattel. Restatement
(Second) of Torts § 222A (1965). At the time AFSCME
received Mr. Janus’s fair-share fees, he had no “right to
control” that money. Instead, under Illinois law and
Abood, the union had a right to the fees under the collective bargaining agreement with CMS. This rules out
conversion. As the Supreme Court said in Chicot Cnty.
(9th Cir.); Carey v. Inslee, 364 F. Supp. 3d 1220 (W.D. Wash.
2019), appeal pending, No. 19-35290 (9th Cir.); Cook v. Brown,
364 F. Supp. 3d 1184 (D. Or. 2019), appeal pending, No. 1935191 (9th Cir.); Danielson v. AFSCME, Council 28, 340 F.
Supp. 3d 1083 (W.D. Wash. 2018), appeal pending, No. 18-36087
(9th Cir.). See also Winner v. Rauner, 2016 WL 7374258 (N.D.
Ill. Dec. 20, 2016) (post-Harris claim for fee reimbursement);
Hoffman v. Inslee, 2016 WL 6126016 (W.D. Wash. Oct. 20, 2016)
(same). But see Lamberty v. Connecticut State Police Union,
2018 WL 5115559 (D. Conn. Oct. 19, 2018) (dismissing for lack of
standing but implying plaintiffs were entitled to previously
withheld fees, plus interest).

30a
Drainage Dist. v. Baxter State Bank, 308 U.S. 371
(1940), “the actual existence of a statute, prior to such a
determination, is an operative fact and may have consequences which cannot justly be ignored.” Id. at 374.
There are also at least two privileges that may be
relevant to a conversion-style claim: authority based upon public interest, Restatement (Second) of Torts § 265
(1965), and privilege to act pursuant to court order, Restatement (Second) of Torts § 266 (1965). Section 265
provides that “one is privileged to commit an act which
would otherwise be a trespass to a chattel or a conversion if he is acting in discharge of a duty or authority
created by law to preserve the public safety, health,
peace, or other public interest, and his act is reasonably
necessary to the performance of his duty or the exercise
of his authority.” While the usual context for the assertion of this privilege is law enforcement, it is not too
much of a stretch to apply it to the union’s conduct here.
CMS and AFSCME acted pursuant to state law. That
sounds like action in discharge of a duty imposed by law.
Section 266, which provides a privilege when one acts
pursuant to a court order, is not directly applicable because there was no court order directing AFSCME to
receive fair-share fees — Abood was permissive, not
mandatory. Nevertheless, CMS and AFSCME did rely
on the Supreme Court’s opinion upholding the legality of
exactly this process.
AFSCME contends that the better analogy is to the
tort of abuse of process. Abuse of process occurs where a
party “uses a legal process, whether criminal or civil,
against another primarily to accomplish a purpose for
which it is not designed.” Restatement (Second) of Torts
§ 682 (1977). Alternatively, the most analogous tort

31a
might be interference with contract. See Restatement
(Second) of Torts § 766A (1979). Under the agency-fee
arrangement, a certain portion of the salary CMS contracted to pay employees went instead to the union. This
arguably made the contract less lucrative for objecting
employees and violated their First Amendment rights.
None of these torts is a perfect fit, but they need not
be. We are directed to find the most analogous tort, not
the exact-match tort. This is inherently inexact. Although there are reasonable arguments for several
diﬀerent torts, we are inclined to agree with AFSCME
that abuse of process comes closest. But perhaps the
search for the best analogy is a fool’s errand. As several
district courts have commented, the Supreme Court in
Wyatt I embarked on the search for the most analogous
tort only for immunity purposes — the Court never said
that the same methodology should be used for the goodfaith defense. See, e.g., Carey, 364 F. Supp. 3d at 1229–
30; Babb, 378 F. Supp. 3d at 872–73; Diamond, 2019 WL
2929875 at *25–26. In the alternative, therefore, we leave
common-law analogies behind and consider the appropriateness of allowing a good-faith defense on its own
terms.
C. Good-faith Defense under Wyatt I
Like our sister circuits, we read the Court’s language
in Wyatt I and Lugar, supplemented by Justice Kennedy’s opinion concurring in Wyatt I, as a strong signal
that the Court intended (when the time was right) to
recognize a good-faith defense in section 1983 actions
when the defendant reasonably relies on established law.
This is not, we stress, a simple “mistake of law” defense.
Neither CMS nor AFSCME made any mistake about the
state of the law during the years between 1982 and June

32a
27, 2018, when Janus II was handed down. Abood was
the operative decision from the Supreme Court from
1977 onward, until the Court exercised its exclusive prerogative to overrule that case. Like its counterparts
around the country, the State of Illinois relied on Abood
when it adopted a labor relations scheme providing for
exclusive representation of public-sector workers and
the remit of fair-share fees to the recognized union. The
union then relied on that state law in its interactions with
other actors.
We realize that there were signals from some Justices during the years leading up to Janus II that indicated
they were willing to reconsider Abood, but that is hardly
unique to this area. Sometimes such reconsideration
happens, and sometimes, despite the most confident predictions, it does not. See, e.g., Dickerson v. United
States, 530 U.S. 428 (2000) (reaﬃrming the Miranda
rule); see also Agostini, 521 U.S. at 237 (“We do not
acknowledge, and we do not hold, that other courts
should conclude our more recent cases have, by implication, overruled an earlier precedent.” (cleaned up)). The
Rule of Law requires that parties abide by, and be able
to rely on, what the law is, rather than what the readers
of tea-leaves predict that it might be in the future.
Notably, Mr. Janus does not allege that CMS and
AFSCME, acting pursuant to state law, failed to comply
with Abood. Mr. Janus says only that AFSCME did not
act in good faith because it “spurned eﬀorts to have
agency fees placed in escrow while their constitutionality
was determined.” But AFSCME was under no legal obligation to escrow the fairshare fees for an indefinite period while the case was being litigated. Such an action, as
AFSCME says, would (in the absence of a court order

33a
requiring security of some kind) “have been hard to
square with the fiduciary duty the Union owes to its own
members,” as the unit’s exclusive representative.
Until Janus II said otherwise, AFSCME had a legal
right to receive and spend fair-share fees collected from
nonmembers as long as it complied with state law and
the Abood line of cases. It did not demonstrate bad faith
when it followed these rules.
D. Entitlement to Money Damages
No one doubts that Mr. Janus is entitled to declaratory and injunctive relief. The Supreme Court declared
that the status quo violated his First Amendment rights
and that “States and public-sector unions may no longer
extract agency fees from nonconsenting employees.” 138
S. Ct. at 2486. Mr. Janus is now protected from that
practice. Any remaining relief was for the district court
to consider. That court declined to grant monetary damages, on the ground that AFSCME’s good-faith defense
shielded the union from such liability. We agree with
that conclusion.
While this may not be all that Mr. Janus hoped for in
this litigation, it is not unusual for remedies to be curtailed in light of broader legal doctrines. Moreover,
though Mr. Janus contends that he did not want any of
the benefits of AFSCME’s collective bargaining and other representative activities over the years, he received
them. Putting the First Amendment issues that concerned the Supreme Court in Janus II to one side, there
was no unjust “windfall” to the union, as Mr. Janus alleges, but rather an exchange of money for services. Our
decision in Gilpin v. AFSCME, 875 F.2d 1310 (7th Cir.
1989) is on point:

34a
[T]he union negotiated on behalf of these employees as it was required by law to do, adjusted grievances for them as it was required by
law to do, and incurred expenses in doing these
things . . . . The plaintiﬀs do not propose to give
back the benefits that the union’s efforts bestowed on them. These benefits were rendered
with a reasonable expectation of compensation
founded on the collective bargaining agreement and federal labor law, and the conferral
of the benefits on the plaintiﬀs would therefore
give rise under conventional principles of restitution to a valid claim by the union for restitution if the union were forced to turn over the
escrow account to the plaintiﬀs and others similarly situated to them.
Id. at 1316.
We have followed similar principles in the ERISA
context. “If restitution would be inequitable, as where
the payor obtained a benefit that he intends to retain
from the payment that he made and now seeks to take
back, it is refused.” Operating Eng’rs Local 139 Health
Benefit Fund v. Gustafson Const. Corp., 258 F.3d 645,
651 (7th Cir. 2001); see also Constr. Indus. Ret. Fund of
Rockford, Ill. v. Kasper Trucking, Inc., 10 F.3d 465, 467
(7th Cir. 1993) (“The welfare fund pooled the money to
provide benefits for all persons on whose behalf contributions were made. Because the drivers received the
health coverage for which they paid through the deductions Kasper sent to the fund, no one is entitled to restitution.”); UIU Severance Pay Tr. Fund v. Local Union
No. 18-U, United Steelworkers of Am., 998 F.2d 509, 513
(7th Cir. 1993) (“[B]ecause the cause of action we are au-

35a
thorizing is equitable in nature, recovery will not follow
automatically upon a showing that the Union contributed
more than was required but only if the equities favor it.”
(internal quotation marks omitted)). We conclude that
Mr. Janus has received all that he is entitled to: declaratory and injunctive relief, and a future free of any association with a public union.
IV
Before closing, we emphasize again that the goodfaith defense to section 1983 liability is narrow. It is not
true, as Mr. Janus charges, that this defense will be
available to “every defendant that deprives any person of
any constitutional right.” We predict that only rarely will
a party successfully claim to have relied substantially
and in good faith on both a state statute and unambiguous Supreme Court precedent validating that statute.
But for those rare occasions, following the lead first of
the Supreme Court in Wyatt I and second of our sister
circuits, we recognize a good-faith defense for private
parties who act under color of state law for purposes of
section 1983.
We AFFIRM the judgment of the district court.
MANION, Circuit Judge, concurring. The court’s opinion in this challenging case is thorough, and I concur
with the court’s ultimate conclusion. I have a couple additional thoughts. Some might observe that Abood had
some benefit to the objectors because they no longer had
to pay service fees equal to union dues as a condition of
employment. But for 41 years, the nonunion employees
had to pay their “fair share.”
The unions received a huge windfall for 41 years. As
the Supreme Court acknowledged in Janus II, Abood

36a
was wrong, so the unions got what the Court called a
“considerable windfall.” The Court in Janus II sums it
up pretty well:
We recognize that the loss of payments from
nonmembers may cause unions to experience
unpleasant transition costs in the short term,
and may require unions to make adjustments
in order to attract and retain members. But we
must weigh these disadvantages against the
considerable windfall that unions have received
under Abood for the past 41 years. It is hard to
estimate how many billions of dollars have
been taken from nonmembers and transferred
to public-sector unions in violation of the First
Amendment. Those unconstitutional exactions
cannot be allowed to continue indefinitely.
Janus v. AFSCME, Council 31, 138 S. Ct. 2448, 2485–86
(2018).
Even though the Supreme Court reached the wrong
result in Abood 41 years before Janus II, the unions justify their acceptance of many millions of dollars because
they accept ed the money in “good faith.” Probably a better way of looking at it would be to say rather than good
faith, they had very “good luck” in receiving this windfall
for so many years. Since the court is not holding that the
unions must repay a portion of the windfall, they can remind themselves of their good luck for the years ahead.

37a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
STACEY MOONEY, on
behalf of herself and all
others similarly situated,

)
)
)
)
Plaintiff,
)
)
v.
)
)
ILLINOIS EDUCATION
)
ASSOCIATION;
)
CONGERVILLE)
EUREKA-GOODFIELD
)
EDUCATION
)
ASSOCIATION, as
)
representative of the class
)
of all chapters and affiliates )
of the Illinois Education
)
Association; and
)
NATIONAL EDUCATION )
ASSOCIATION.
)
)
Defendants.
)

Case No. 1:18-cv-1439

ORDER & OPINION
This matter is before the Court on Defendants’ Motion to Dismiss (Doc. 11).

38a
Plaintiff has filed a response (Doc. 14) and Defendants have filed a reply with the Court’s leave (Doc. 18).
Although Defendants requested oral argument (Doc. 11
at 2), the Court denies the request because this matter
can be decided on the papers. The matter is therefore
ripe for review.
BACKGROUND
Plaintiff Stacey Mooney is a public school teacher in
the Eureka Community School District # 140 and resides in Tazewell County, Illinois. (Doc. 1 at 2). Over the
course of her nearly three decades of teaching, she has
declined to join Defendant Illinois Education Association
or its affiliates, Defendant Congerville-Eureka-Goodfield
Education Association and Defendant National Education Association, because she “disapproves of their political advocacy and collective bargaining activities” and
“the excessive salaries” paid to high-ranking union officials. (Doc. 1 at 2).
Though not a member of any union, Plaintiff was
nevertheless required by law to pay “fair-share” fees to
Defendants. (Doc. 1 at 2). Relying on the Supreme
Court’s recent ruling in Janus v. American Federation of
State, County, & Municipal Employees, Council 31, 138
S. Ct. 2448 (2018),1 Plaintiff now seeks reimbursement of
the fair-share fees she and the putative class members
paid to Defendants.

1.

The American Federation of State, County, and Municipal Employees is hereinafter referred to as “AFSCME”.

39a
DISCUSSION
The discussion of this case must begin with the Supreme Court’s decision in Janus, which held the Illinois
law requiring certain employees pay fair-share fees violated the First Amendment. Prior to Janus, Illinois law
was as follows:
Under the Illinois Public Labor Relations Act
(IPLRA), employees of the State and its political subdivisions are permitted to unionize. See
Ill. Comp. Stat., ch. 5, § 315/6(a) (West 2016). If
a majority of the employees in a bargaining
unit vote to be represented by a union, that union is designated as the exclusive representative of all the employees. §§ 315/3(s)(1),
315/6(c), 315/9. Employees in the unit are not
obligated to join the union selected by their coworkers, but whether they join or not, that union is deemed to be their sole permitted representative. See §§ 315/6(a), (c).
Janus, 138 S. Ct. at 2460. Because “the union is required
by law to provide fair representation for all employees in
the unit, members and nonmembers alike,” and
“[e]mployees who decline to join the union are not assessed full union dues,” the law required non-union employees to pay fair-share fees, “a percentage” of the full
union fee. Id. These fees could not be used for political
expenditures. Id. at 2460–61.
A similar scheme was held constitutional in Abood v.
Detroit Board of Education, 431 U.S. 209 (1977). Id. at
2460. Prior to Janus, the Supreme Court “cited Abood
favorably many times, and ha[d] affirmed and applied its
central distinction between the costs of collective bar-

40a
gaining (which the government can charge to all employees) and those of political activities (which it cannot).” Id.
at 2497 (Kagan, J., dissenting). Nevertheless, in recent
years the Supreme Court twice cast doubt on Abood’s
continuing validity. Knox v. Serv. Emps. Int’l Union,
Local 1000, 567 U.S. 298, 311 (2012) (“Acceptance of the
free-rider argument as a justification for compelling
nonmembers to pay a portion of union dues represents
something of an anomaly . . . .”); Harris v. Quinn, 573
U.S. 616, 635, 645–46, 635 (2014) (stating “[t]he Abood
Court’s analysis is questionable on several grounds” and
declining to extend Abood because of its “questionable
foundations.”).
In Janus, the Supreme Court overruled Abood, holding state laws compelling public employees who are not
union members to pay fair-share fees to a union violate
the free-speech rights of those non-union employees. 138
S. Ct. at 2460. The Supreme Court concluded “Abood
was wrongly decided” and refused to allow “unconstitutional exactions” — mandatory fair-share fees — “to continue indefinitely.” Id. at 2486.
Plaintiff is not the first to offer an argument based on
Janus seeking recovery of fair-share fees paid prior to
its pronouncement. Among this Court’s colleagues to
have considered these suits, there is a consensus concluding fair-share fees collected prior to Janus may not
be recovered. Danielson v. AFSCME, Council 28, AFLCIO, 340 F. Supp. 3d 1083, 1087 (W.D. Wash. 2018); Cook
v. Brown, ___ F. Supp. 3d ___, No. 18-cv-1085, 2019 WL
982384, at *8 (D. Or. Feb. 28, 2019); Carey v. Inslee, ___
F. Supp. 3d ___, No. 18-cv-5208, 2019 WL 1115259, at
*8–10 (W.D. Wash. Mar. 11, 2019); Crockett v. NEAAlaska, ___ F. Supp. 3d ___, No. 18-cv-0179, 2019 WL

41a
1212082, at *6 (D. Alaska Mar. 14, 2019); Janus v.
AFSCME, Council 31, No. 15-cv1235, 2019 WL 1239780,
at *3 (N.D. Ill. Mar. 18, 2019); Hough v. SEIU Local 521,
No. 18-cv-4902, 2019 WL 1274528, at *1 (N.D. Cal. Mar.
20, 2019); Lee v. Ohio Educ. Ass’n, ___ F. Supp. 3d ___,
No. 18-cv-1420, 2019 WL 1323622, at *2 (N.D. Ohio Mar.
25, 2019). For following reasons, the Court joins this
growing consensus.
I. Good-Faith Defense
Defendants argue Plaintiff’s primary claim — that
under Janus she and the putative class members are entitled to a refund of all the fair-share fees they paid prior
to Janus — is barred by a good-faith defense available to
private parties sued under 42 U.S.C. § 1983. (Doc. 11 at
1). They assert this defense is particularly warranted
here because the conduct was authorized by state statutes, which were not only presumptively valid, but valid
under the Supreme Court’s holding in Abood. The existence and contours of this good-faith defense are a matter
of first impression in this District. On review, the Court
concludes private parties facing a § 1983 lawsuit may advance a good-faith affirmative defense and Defendants
have successfully done so in this case.
A. Type of Motion & Legal Standard
As an initial matter, Defendants have erred by making this argument under Federal Rule of Civil Procedure
12(b)(6) rather than Rule 12(c) or Rule 56. The goodfaith defense is an affirmative defense. See Wyatt v. Cole,
504 U.S. 158, 169 (1992) (“[W]e do not foreclose the possibility that private defendants faced with § 1983 liability

42a
. . . could be entitled to an affirmative defense based on
good faith . . . .”); Cook, 2019 WL 982384, at *6.2
“[C]ourts should usually refrain from granting Rule
12(b)(6) motions on affirmative defenses.” Brownmark
Films, LLC v. Comedy Partners, 682 F.3d 687, 690 (7th
Cir. 2012). Whether to dismiss a case due to an affirmative defense is a question properly resolved under Rule
12(c). Yassan v. J.P. Morgan Chase & Co., 708 F.3d 963,
975 (7th Cir. 2013). Though Plaintiff does not object to
the improper usage of Rule 12(b)(6), the Court declines
to consider this portion of Defendants’ motion under that
Rule.
Nevertheless, the Seventh Circuit has “found such
procedural missteps [are] harmless when all the facts
necessary to rule on the affirmative defense are properly
before the court on the motion to dismiss.” United States
v. Rogers Cartage Co., 794 F.3d 854, 861 (7th Cir. 2015);
see also Brownmark, 682 F.3d at 692 (“The district court
could properly consider an affirmative defense in the
2.

Although the Court is persuaded by the above-cited authority
concluding the good-faith defense is an affirmative defense, the
Court recognizes some authority suggests the good-faith defense is a standard, rather than affirmative, defense. See Wyatt,
504 U.S. at 172 (Kennedy, J., concurring) (“[I]t is something of a
misnomer to describe the common law as creating a good-faith
defense; we are in fact concerned with . . . the essential elements
of the tort.” (emphasis in original)); Pinsky v. Duncan, 79 F.3d
306, 312 (2d Cir. 1996). However, the Court’s ultimate decision
would be unaffected if it is a standard defense. If it were, the
Court would not construe Defendants’ motion under Rule 12(c)
but rather would decide it under Rule 12(b)(6) and would find
that the inquiry requires looking to the most analogous common
law tort, contrary to the holding infra in Section I(C)(2). For the
reasons stated in footnote five, infra, this inquiry would not alter the outcome in this case.

43a
context of a motion for summary judgment, which it did
here, regardless of the caption [the defendant] used.”).
Indeed, this particular procedural misstep “is of no consequence because [the] standard of review is the same.”
Veit v. Frater, 715 F. App’x 524, 526–27 (7th Cir. 2017).
“To survive a motion for judgment on the pleadings, a
complaint must ‘state a claim to relief that is plausible on
its face.’ ” Wagner v. Teva Pharm. USA, Inc., 840 F.3d
355, 357–58 (7th Cir. 2016) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). “A claim has ‘facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.’ ” Id.
at 358 (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)). And “[i]n assessing a motion for judgment on the
pleadings,” the Court draws “all reasonable inferences
and facts in favor of the nonmovant, but need not accept
as true any legal assertions.” Id.
B. There is a Good-Faith Defense for Private
Parties Sued Under § 1983
Plaintiff never quite argues the good-faith defense
does not exist. (See Doc. 14 at 23 (“There is much to be
said in support of a ‘good faith’ defense that shields private defendants from liability for damages that result
from an innocent but unconstitutional seizure of property.”) (emphasis in original)). However, she repeatedly
indicates in that direction (e.g. Doc. 14 at 16 (“There is
obviously no ‘good faith’ defense in the text of section
1983”)), uses quotation marks to offset the words “good
faith,” and spends over a page arguing Defendants overstated the support in the judiciary for the defense (Doc.
14 at 21-23). The Court therefore infers she is not conceding the existence of such a defense. Accordingly, the

44a
threshold consideration is whether a good-faith defense
exists for private parties sued under § 1983. See Cook,
2019 WL 982384, at *5.
The Seventh Circuit has yet to issue a decision on the
good-faith defense in this context. Janus, 2019 WL
1239780, at *2; Winner v. Rauner, No. 15-cv-7213, 2016
WL 7374258, at *5 (N.D. Ill. Dec. 20, 2016). The Supreme
Court has also explicitly left this question open. Wyatt,
504 U.S. at 169; Richardson v. McKnight, 521 U.S. 399,
414 (1997). Therefore, no binding precedent dictates this
Court’s determination.
Lack of binding precedent, however, does not mean
this Court is left adrift. State entities, state employees,
and municipal entities enjoy labyrinthine fortresses of
immunities and protections against liability under
§ 1983.3 Following the Supreme Court’s holding that pri-

See Will v. Mich. Dept. of State Police, 491 U.S. 58, 65–66 (1989)
(“[A] State is not a ‘person’ within the meaning of § 1983 . . . .”);
Edelman v. Jordan, 415 U.S. 651, 663 (1974) (noting sovereign
immunity extends to cases where a State is the party in interest,
although an individual is named in the caption, because the action in essence seeks recovery from the State); Nixon v. Fitzgerald, 457 U.S. 731, 749–52 (1982) (noting presidents, prosecutors, and judges enjoy absolute immunity from damages and liability for actions taken in their respective presidential, prosecutorial, and judicial functions); Harlow v. Fitzgerald, 457 U.S.
800, 815–19 (1982) (“[G]overnment officials performing discretionary functions generally are shielded from liability for civil
damages insofar as their conduct does not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.”); Monell v. Dep’t of Soc. Servs. of the
City of New York, 436 U.S. 658, 694 (1978) (“[A] local government may not be sued under § 1983 for an injury inflicted solely
by its employees or agents” but only “when execution of a government’s policy or custom” made by an official policymaker
(continued…)
3.

45a
vate parties may be liable under § 1983 in situations
where they act according to a state-created system, Lugar v. Edmondson Oil Co., Inc., 457 U.S. 922, 942 (1982),
private parties newly exposed to § 1983 liability sought
to gain access to similar forms of immunity. The Supreme Court first considered this question in Wyatt,
where it held “qualified immunity, as enunciated in Harlow” was not “available for private defendants faced with
§ 1983 liability” under Lugar. 504 U.S. at 168–69.
However, as noted above, the Supreme Court did not
“foreclose the possibility that private defendants faced
with § 1983 liability under Lugar . . . could be entitled to
an affirmative defense based on good faith . . . or that
§ 1983 suits against private, rather than governmental,
parties could require plaintiffs to carry additional burdens.” Id. at 169. The Supreme Court was particularly
concerned that “principles of equality and fairness may
suggest . . . that private citizens who rely unsuspectingly
on state laws they did not create and may have no reason
to believe are invalid should have some protection from
liability, as do their government counterparts.” Id. at
168. Chief Justice Rehnquist and Justice Kennedy, writing in dissent and concurrence, respectively, believed a
good-faith defense did exist but differed on its application. Id. at 169–70 (Kennedy, J., concurring), 175–77
(Rehnquist, C.J., dissenting).
Since Wyatt, every federal appellate court to have
decided the question has held a good-faith defense exists
for private parties sued under § 1983. Winner, 2016 WL
7374258, at *5 (citing Pinsky, 79 F.3d at 311–12; Jordan
“inflicts the injury [may] the government as an entity [be held]
responsible under § 1983.”).

46a
v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250,
1275–78 (3d Cir. 1994); Wyatt v. Cole, 994 F.2d 1113,
1118–21 (5th Cir. 1993); Vector Research, Inc. v. Howard
& Howard Attorneys P.C., 76 F.3d 692, 698–99 (6th Cir.
1996); and Clement v. City of Glendale, 518 F.3d 1090,
1096–97 (9th Cir. 2008)).4 This Court finds the consensus
of post-Wyatt circuit decisions and the reasoning contained therein persuasive. Also persuasive are opinions
from other district courts in this circuit: Winner, 2016
WL 7374258, and Janus, 2019 WL 1239780, in which the
Northern District of Illinois concluded a good-faith defense existed, and Lewis v. McCracken, 782 F. Supp. 2d
702, 715 (S.D. Ind. 2011), in which the Southern District
of Indiana concluded the same. But most persuasive is
Wyatt itself. Although the statement regarding the goodfaith defense in the Supreme Court’s opinion was dicta,
the reasoning — that it would be anomalous to grant
broad immunities or protections to all state actors while
simultaneously denying private actors a longstanding
common law defense — is convincing. This Court therefore holds at least some private actors sued under § 1983
may invoke an affirmative defense of good-faith.

4.

Plaintiff suggests the First Circuit in Downs v. Sawtelle, 574
F.2d 1, 15–16 (1st Cir. 1978) and the Ninth Circuit in Howerton
v. Gabica, 708 F.2d 380, 385 n.10 (9th Cir. 1983) rejected the
good-faith defense. These cases, however, were decided prior to
Wyatt. To the extent these cases stand for the proposition Plaintiff suggests, the Court therefore would find them an unpersuasive counterweight to later decisions — including the Ninth Circuit’s later holding—by courts of appeals considering this question.

47a
C. The Good-Faith Defense is Available in this Case
Plaintiff argues that if a good-faith defense is available, it is not available here for several reasons. Those
proffered reasons are: (1) the good-faith defense shields
a defendant solely from damages, not from return of unlawfully taken property; (2) the good-faith defense can
only exist where the most analogous tort at common law
required scienter; (3) Seventh Circuit precedent requires
this Court to hold non- members who paid fair-share fees
are entitled to a refund; and (4) the good-faith defense
ought not apply to private institutional defendants, just
as qualified immunity does not apply to public institutional defendants.
1. The Good-Faith Defense is Available in
Restitution Cases, at Least Where the
Relief Sought is Legal Rather Than
Equitable
The Western District of Washington ably explained
why merely casting a remedy as equitable relief does not
defeat the good-faith defense, even assuming the goodfaith defense cannot apply to equitable relief:
A plaintiff may not circumvent qualified
immunity or the good faith defense simply by
labeling a claim for legal damages as one for
equitable restitution. See Lenea v. Lane, 882
F.2d 1171, 1178–79 (7th Cir. 1989) (“Regardless of what label is placed on the monetary
relief which Lenea wants, ‘equitable’ or ‘legal
damages,’ it remains a personal monetary
award out of the official’s own pocket.”); see
also Clanton v. Orleans Par. Sch. Bd., 649 F.2d
1084, 1101 (5th Cir. 1981) (rejecting the

48a
“distinction between equitable and legal relief
for purposes of the qualified immunity
defense”). In other words, Plaintiffs cannot
save their claim through a mere “semantic
exercise” if equitable relief is not actually
available. Lenea, 882 F.2d at 1179.
Carey, 2019 WL 1115259, at *9.
“[N]ot all relief falling under the rubric of restitution
is available in equity.” Great-West Life & Annuity Ins.
Co. v. Knudson, 534 U.S. 204, 212 (2002). An equitable
remedy typically seeks return of a specific object as
opposed to the monetary value of that object. Montanile
v. Bd. of Trs. of Nat’l. Elevator Indus. Health Benefit
Plan, 136 S. Ct. 651, 658–59 (2016). As the Carey court
noted, the presupposition in cases like the one at hand is
that all identifiable money was used to fund union
activities and, consequently, has already been dissipated;
Plaintiff could receive the value of her fair-share fees but
not the specific money she paid. Carey, 2019 WL
1115259, at *9. Plaintiff’s citations to cases concerning
cows and cars, undissipated specific objects, seized in
good faith but unconstitutionally (Doc. 14 at 23) are thus
inapposite.
If all identifiable monies sought by a plaintiff have
been expended, the “plaintiff then may have a personal
claim against the defendant’s general assetsbut
recovering out of those assets is a legal remedy, not an
equitable one.” Montanile, 136 S. Ct. at 658 (emphasis in
original). Plaintiff’s claim lies in law rather than equity,
and there is consequently no reason to consider whether
the good-faith defense applies where the claim is for
equitable restitution. See Crockett, 2019 WL 1212082, at
*5 (“Plaintiffs’ argument is also flawed in that the relief

49a
they seek does in fact sound in law. Their fair-share fees
paid for ongoing costs of representation the Union
Defendants provided on their behalf.”).
Plaintiff argues that Carey and other cases rejecting
claims essentially identical to hers fail to sufficiently
explain why the good-faith defense can apply against a
claim for restitution and suggests the defendants in
those cases received a windfall. (Doc. 14 at 23-24). The
Court disagrees with Plaintiff’s suggestion that the
Court’s counterparts have failed to provide thorough
explanations, but will try its hand at one nonetheless.
The gravamen of Plaintiff’s objection is that “the
union was unjustly enriched by the unconstitutional
agency-shop arrangements that it enforced.” (Doc. 14 at
17). She further suggests the Janus Court disavowed or
abrogated the view that fairshare fees were justly paid
for services rendered. (Doc. 14 at 17 n.6 (“Petitioner . . .
argues that he is not a free rider on a bus headed for a
destination that he wishes to reach but is more like a
person shanghaied for an unwanted voyage”) (quoting
Janus, 138 S. Ct. at 2466)). She is incorrect. The portion
of Janus cited merely describes an argument. The
Supreme Court went on to decline to determine whether
that description was accurate, merely noting “avoiding
free riders is not a compelling interest.” Janus, 138 S.
Ct. at 2466.
Even with Janus holding mandatory fair-share fees
are unconstitutional, unions were not unjustly enriched
by the payment of fair-share fees because, as the name
implies, the fees covered the costs of union
representation for non-union members. The Seventh
Circuit has explained:

50a
[T]he union negotiated on behalf of these
employees as it was required by law to do,
adjusted grievances for them as it was
required by law to do, and incurred expenses in
doing these things . . . . The plaintiffs do not
propose to give back the benefits that the
union’s efforts bestowed on them. These
benefits were rendered with a reasonable
expectation of compensation founded on the
collective bargaining agreement and federal
labor law, and the conferral of the benefits on
the plaintiffs would therefore give rise under
conventional principles of restitution to a valid
claim by the union for restitution if the union
were forced to turn over the escrow account to
the plaintiffs and others similarly situated to
them . . . . In claiming restitution the plaintiffs
are standing that remedy on its head.
Gilpin v. AFSCME, AFL-CIO, 875 F.2d 1310, 1316 (7th
Cir. 1989)
The legal landscape has shifted since Gilpin, but the
underlying principle has not. The unions may not have
spent Plaintiff’s funds as she would have, but there is no
allegation that they failed to provide services as required
by Illinois law to her or others similarly situated.
Because the fair-share fees were expended on Plaintiff
and others similarly situated, she would gain their
benefit twice if legal restitution were allowed. Of course,
had the fees not been spent for Plaintiff’s benefit — and
thus been available through equitable restitution — the
calculus might be different.
The Court concludes the good-faith defense may be
maintained in actions at law, and this action sounds in

51a
law rather than equity. Therefore, the good-faith defense
is available here. The Court does not reach the question
of whether it may be used in suits at equity.
2. No Inquiry into a Common Law Tort
Analog is Necessary
The Wyatt concurrence and dissent suggest the
good-faith defense is available only where “[t]he
common-law tort actions most analogous to the action”
required “that the wrongdoer acted with malice and
without probable cause.” 504 U.S. at 172 (Kennedy, J.,
concurring); id. at 176 (Rehnquist, C.J., dissenting); see
also id. at 164 (stating, in the majority opinion, “[i]n
determining whether there was an immunity at common
law that Congress intended to incorporate . . . we look to
the most closely analogous torts.”). Relying on these
statements, Plaintiff advances the argument that the
good-faith defense can only be maintained where the
most analogous common law tort required scienter and,
further, the most analogous tort here is conversion,
which lacked a scienter requirement at common law.
(Doc. 14 at 11-12).
Plaintiff also asserts the majority opinion in Wyatt is
binding precedent which “precludes a ‘good faith’
defense when the most analogous common-law tort
imposed strict liability.” (Doc. 14 at 13). Supreme Court
decisions interpreting federal law are, of course, binding
on this and every court, but not everything stated in a
Supreme Court opinion constitutes binding precedent.
“When an opinion issues for the Court,” courts are bound
by the result and “those portions of the opinion
necessary to that result.” Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 67 (1996).

52a
Dicta are “the part[s] of an opinion that a later court,
even if it is an inferior court, is free to reject.” United
States v. Crawley, 837 F.2d 291, 292 (7th Cir. 1988).
There are sound foundations underlying the distinction
between dicta and holdings. Dicta “not being integral
elements of the analysis underlying the decision — not
being grounded in a concrete legal dispute and anchored
by the particular facts of that dispute — [ ] may not
express the judges’ most careful, focused thinking.”
Wilder v. Apfel, 153 F.3d 799, 803 (7th Cir. 1998).
Additionally, allowing dicta binding force would
undermine the separation of powers; “to give the
inessential parts of an opinion the force of law would give
judges too much power, and of an essentially legislative
character.” Id.
It can be difficult to tell where a holding ends and
dictum begins in some situations. But not so with the
Wyatt Court’s musings on the good-faith defense. The
Supreme Court was clear that “the precise issue”
decided in Wyatt was “whether qualified immunity . . . is
available for private defendants faced with § 1983
liability” under Lugar. 504 U.S. at 168–69. The Supreme
Court answered in the negative but refused to “foreclose
the possibility that private defendants . . . could be
entitled to an affirmative defense based on good faith.”
Id. at 169; see also Richardson, 521 U.S. at 413 (“Wyatt
explicitly stated that it did not decide whether or not the
private defendants before it might assert, not immunity,
but a special ‘good-faith’ defense.”). Therefore, all that
Wyatt says about the good-faith defense is dicta.
Persuasive dicta, but dicta nonetheless.
Plaintiff’s statement that Wyatt is binding precedent
in this context brings her perilously close to

53a
misrepresenting the state of the law. Particularly
concerning is that Attorney Jonathan F. Mitchell,
representing Plaintiff, knew or should have known this
when he submitted and signed Plaintiff’s response. The
response cites Carey (Doc. 14 at 23) — a case in which
Attorney Mitchell was also counsel and advanced the
same argument. Carey states in no uncertain terms that
the portion of Wyatt discussed is nonbinding dicta. 2019
WL 1115259, at *6 (“The Court’s holding in Wyatt was
far narrower . . . than Plaintiffs present it.”).
Carey also correctly explained the dicta in Wyatt was
“far murkier” than Plaintiff suggests. See id. Whether a
common law analog is necessary is therefore susceptible
to dispute and has, in fact, been disputed. See Danielson,
340 F. Supp. 3d at 1086 (noting the Ninth Circuit did not
require an analysis of analogous common law torts in
Clement but suggesting the Second Circuit in Pinsky
did); Cook, 2019 WL 982384, at *6. Additionally, no court
has yet barred the good-faith defense on common law
analog grounds. Carey, 2019 WL 1115259, at *6 (noting
all courts to have required a common law analog tort
determined the one in question had a scienter
requirement).
Several courts recently considering the question have
provided compelling reasons why the good-faith defense
should not involve looking to the most analogous
common law tort. The Northern District of Illinois held
“limiting principles of scienter or motive are not
consistent with the Supreme Court’s approach [in Wyatt]
because they would still leave private parties exposed to
a damages verdict for relying on seemingly valid state
laws that were later held to be unconstitutional.”
Winner, 2016 WL 7374258, at *6. The District of Oregon

54a
noted “affirmative defenses need not relate to or rebut
specific elements of an underlying claim,” so to require
the good-faith affirmative defense to effectively rebut a
scienter element of a common law tort would be in
tension with its status as an affirmative defense. Cook,
2019 WL 982384, at *6 (citing Jarvis v. Cuomo, 660 F.
App’x 72, 75–76 (2d Cir. 2016)).
This Court agrees with the Northern District of
Illinois and District of Oregon. The principles of fairness
and equality underlying the good-faith defense in the
§ 1983 context demand a private defendant relying in
good faith on a presumptively constitutional statute not
be abandoned and exposed when the law is subsequently
held unconstitutional, while the State remains cloaked in
sovereign immunity and its officials are shielded by the
veil of qualified immunity. Quibbles over which tort as it
existed at common law in 1871 is most analogous to the
harm wrought by the statute in question would only
undercut these purposes.5

5.

If, however, this Court were to reach the issue, it would determine that either tortious interference with a contract (or business expectancy) or abuse of process was more analogous to the
instant claim than conversion; and both of those torts require
scienter. See Carey, 2019 WL 1115259, at *7. The reason these
torts are the proper analogs is that “[c]onversion involves taking
another’s property, regardless of intent, whereas the gravamen
of the First Amendment claim in this case is that the Union Defendant[s] expended compelled agency fees on political and ideological activities that Plaintiffs oppose.” Danielson, 340 F. Supp.
3d at 1086; see also Carey, 2019 WL 1115259, at *7; Cook, 2019
WL 982384, at *6; Crockett, 2019 WL 1212082, at *5.

55a
3. Seventh Circuit Precedent Does Not
Require the Court to Deny the Good-Faith
Defense Here
In Riffey v. Rauner, 910 F.3d 314, 315 (7th Cir. 2018)
(Riffey II), petition for cert. filed, No. 18-1120, the
Seventh Circuit described its prior opinion in that matter
as agreeing “with the putative class that no one could be
compelled to pay fair-share fees . . . and that any such
objector would be entitled to have his or her payments
refunded.” Plaintiff seizes upon this line, proffering:
“Riffey did not consider or discuss the good-faith issue,
but its statement regarding the propriety of refunds is a
binding pronouncement on this [C]ourt.” (Doc. 14 at 22).
This Court has already explained the difference
between binding precedent and dicta in detail. Supra
Section I(C)(2). The phrase Plaintiff cites is dicta. The
question addressed by the earlier opinion was whether a
class could be certified. Riffey v. Rauner, 873 F.3d 558,
560 (7th Cir. 2017), vacated, 138 S. Ct. 2708, 2708–09
(2018) (Riffey I). The appellant filed a petition for a writ
of certiorari, which the Supreme Court granted, vacating
and remanding “for further consideration in light of
Janus.” 138 S. Ct. at 2708. On remand, the Seventh
Circuit held “the district court acted well within its
authority when it declined to certify a class action,”
determining the Supreme Court’s intervening decision in
Janus did not alter its calculation. Riffey II, 910 F.3d at
319. The Seventh Circuit specifically stated, however,
that individuals “who wish to pursue refunds are free to
seek to do so; we make no comment on such cases or the
defenses the Union may endeavor to raise in them.” Id.
As previously explained, not every phrase jotted by
the Seventh Circuit or the Supreme Court binds this

56a
Court. Although this Court is readily persuaded by dicta
from those courts, this single statement taken out of
context does not mean the Seventh Circuit intended to
suggest no affirmative defenses were available. The Seventh Circuit’s express disavowal of deciding such issues
in Riffey II makes clear the Court is right to be
unpersuaded.
4. The Good-Faith Defense is Available to
Private Institutional Defendants
Plaintiff next argues the good-faith defense cannot
shield institutions, but only individuals, just as qualified
immunity protects officers but not counties and
municipal corporations. (Doc. 14 at 18-19). Defendants
respond the defense has been applied to institutions and
the rationale behind the good-faith defense supports that
application. (Doc. 18 at 8).
It is certainly true that some of the circuits to have
considered the good-faith defense have allowed it for
institutional defendants. Jordan, 20 F.3d at 1277
(holding a law firm might be entitled to assert a goodfaith defense); Vector Research, 76 F.3d at 699
(appearing to hold the same); Clement, 518 F.3d at 1097
(“The facts of this case justify allowing Monterey Tow
Service,” a private corporation, “to assert such a good
faith defense.”). While institutions were before the
courts in those cases, however, it does not appear the
argument made by Plaintiff here was presented to them;
those opinions are therefore of limited persuasive value
in answering the instant question.
Nothing in the good-faith defense suggests it ought
to be understood as perfectly congruent with qualified
immunity. As the Supreme Court explained in Wyatt,
“the reasons for recognizing [qualified] immunity were

57a
based not simply on the existence of a good faith defense
at common law, but on the special policy concerns
involved in suing government officials.” 504 U.S. at 167;
see also id. at 170–71 (Kennedy, J. concurring) (“In the
context of qualified immunity” the Supreme Court has
“diverged to a substantial degree from the historical
standards . . . . This transformation was justified by the
special policy concerns arising from public officials’
exposure to repeated suits.”).
But these special policy concerns also made qualified
immunity improper for municipal corporations. Qualified
immunity rests on “two mutually dependent rationales”:
(1) allowing liability for officers who must exercise
discretion and who do so in good faith would be unjust
and (2) the threat of liability might deter officers from
executing their duties “with the decisiveness and the
judgment required by the public good.” Owen v. City of
Independence, 445 U.S. 622, 654 (1980) (internal
quotation marks omitted) (quoting Scheuer v. Rhodes,
416 U.S. 232, 240 (1974) abrogated in part on other
grounds by Harlow, 457 U.S. 800). But no injustice
necessarily arises from requiring a policymaker to bear
the costs of an unconstitutional policy. Owen, 445 U.S. at
655. And while society has an interest in executive
officials executing the laws without paralysis resulting
from potential liability for split-second calls on
complicated constitutional questions, legislative or quasilegislative decisions ought to be made with an eye
toward the Constitution.6 Id. at 656. This accords with

6.

This is not to imply that executive officials can simply ignore the
constitutionality of their actions. Their immunity is qualified ra(continued…)

58a
restrictions on municipal liability, which “is limited to
action for which the municipality is actually responsible,”
action taken “pursuant to a municipality’s ‘official policy.’ ” Pembauer v. City of Cincinnati, 475 U.S. 469, 479
(1986).
These concerns do not inhere in private institutional
defendants. Defendants did not make a policy which
ultimately was held unconstitutional; the State of Illinois
did. Defendants are not governmental actors who should
consider at every step the potential they might be
violating constitutional rights; they are private actors
entitled to rely on the State’s laws. So, the reasons
against extending qualified immunity to municipal corporations and counties are inapposite.
Plaintiff notes this standard creates the anomaly that
public institutions are treated differently from public
officials, but private institutions are not treated
differently from their agents. But she misunderstands
the nature of the anomaly. The oddity is not that private
institutions are treated the same as private individuals,
but rather that public institutions are not treated the
same as public officials. This oddity is justified because
of the particular policy concerns essential to the public,
legislative character of public institutions. Those concerns being absent here, the Court rejects Plaintiff’s
argument that private institutional defendants may not
avail themselves of the good-faith defense.

ther than absolute for good reason. See Scheuer, 416 U.S. at
247–48.

59a
D. The Requirements of the Good-Faith Defense
The good-faith defense exists and is available to
Defendants in this case to argue against Plaintiff’s
specific claim. What remains is to determine whether
Defendants have shown they acted in good faith. Plaintiff
argues Defendants cannot establish a good-faith defense
to her Janus claim without (1) affirmatively showing
they complied with Abood and (2) presenting evidence of
Defendants’ officers’ subjective beliefs, both of which she
argues require factual development and therefore cannot
be decided at this time. (Doc. 14 at 20-21). The Court
disagrees.
1. Defendants Need Not Show Perfect
Compliance
with
Abood
to
Avail
Themselves of the Good-Faith Defense
Against a Janus Claim
Plaintiff asserts “the union cannot establish ‘good
faith’ unless it shows that it fully complied with the preJanus constitutional strictures on agency shops.” (Doc.
14 at 20). But as the District of Alaska explained, the
“argument that discovery is needed on a different claim
for different relief on a different class before the court
can apply the good faith defense simply does not track.”
Crockett, 2019 WL 1212082, at *6; see also Carey, 2019
WL 1115259, at *6.
Janus held the First Amendment is violated when
“an agency fee []or any other payment to the union” is
“deducted from a nonmember’s wages.” 138 S. Ct. at
2486. Under Abood, this was not true. 431 U.S. at 223.
The good-faith defense requires only the alleged
unlawful conduct — here the taking of fair-share fees —
be done in good faith. It does not require complete good

60a
faith in all actions. If Defendants improperly spent the
fair-share fees, Plaintiff would have an independent
Abood claim but it would not render the exaction of the
fee an act in bad faith. Plaintiff cannot embed an Abood
claim in a Janus claim and thereby shift the burdens of
pleading, proof, and persuasion.
2. Defendants Have Shown the Good-Faith
Defense Bars Plaintiff’s Janus Claim
Although there may be some disagreement as to
what showing is needed to establish good faith, see
Carey, 2019 WL 1115259, at *5 (“Circuit Courts disagree
about precisely what standard should apply in the good
faith analysis”), the primary differentiation appears to be
whether the analysis is solely subjective or also includes
an objective component, id. See also Lewis, 782 F. Supp.
2d at 715. Determining a precise standard is unnecessary
here because Defendants’ reliance on Abood was not
only objectively reasonable but shows subjective good
faith as a matter of law. See Danielson, 340 F. Supp. 3d
at 1086–87. “[R]egardless of personal opinions, individuals are entitled to rely upon binding United States
Supreme Court precedent.” Lee, 2019 WL 1323622, at *2.
Thus, where there is a valid state statute constitutional
under then-current Supreme Court precedent, subjective good faith may be presumed.
Indeed, to do otherwise results in an odd situation: if
Defendants’ officers “subjectively believed the Supreme
Court would not overrule Abood, [Defendants’] collection
of agency fees, up until Janus, would be shielded by the
good faith defense, but not so if the same [officers]
instead subjectively believed (correctly) that the Supreme Court would overrule Abood.” Danielson, 340 F.
Supp. 3d at 1086 (emphasis in original). But “reading the

61a
tea leaves of Supreme Court dicta has never been a
precondition to good faith reliance on governing law.”
Cook, 2019 WL 982384, at *7; see also Winner, 2016 WL
7374258, at*5 (“Any subjective belief [Defendants] could
have had that the precedent was wrongly decided and
should be overturned would have amounted to
telepathy.”). To require such divinations would “imperil
the rule of law.” Cook, 2019 WL 982384, at *7. “Inviting
discovery on the subjective anticipation of an
unpredictable shift in the law undermines the
importance of observing existing precedent and ignores
the possibility that prevailing jurisprudential winds may
shift. This is not a practical, sustainable or desirable
model.” Danielson, 340 F. Supp. 3d at 1086.
Presuming subjective good faith, by contrast, follows
from bedrock principles. “It is emphatically the province
and duty of the judicial department to say what the law
is.” Marbury v. Madison, 5 U.S. 137, 177 (1803). The
highest court in the land held a law identical in all
relevant respects to the Illinois statutory scheme did not
offend the First Amendment. Abood, 431 U.S. 209. That
“Abood was wrongly decided,” Janus, 136 S. Ct. at 2486,
was a decision only that Court could make. Until it did
so, reliance on Abood was nothing less than justified
reliance on the law of the land. The Court agrees with
the other courts to have considered this question and
holds Defendants’ good faith is established as a matter of
law. Danielson, 340 F. Supp. 3d at 1086; Cook, 2019 WL
982384, at *7; Carey, 2019 WL 1115259, at *5–6;
Crockett, 2019 WL 1212082, at *6; Janus, 2019 WL
1239780, at *3; Hough, 2019 WL 1274528, at *1; Lee,
2019 WL 1323622, at *2; see also Winner, 2016 WL
7374258, at *5. Plaintiff’s argument that discovery into

62a
Defendants’ officers’ state of mind is necessary (Doc. 14
at 21) is therefore rejected.
In Wyatt, the dissent charged there was no reason
“other than a needlessly fastidious adherence to
nomenclature” to deny private § 1983 defendants
qualified immunity while allowing the existence of a
good-faith defense. 504 U.S. at 177. Justice Kennedy
responded in his concurrence: “By casting the rule as an
immunity, we imply the underlying conduct was
unlawful, a most debatable proposition in a case where a
private citizen may have acted in good-faith reliance
upon a statute.” Id. at 173. This case demonstrates the
importance of the concurrence’s observation. Plaintiff
does not allege Defendants meant to behave unlawfully.
Rather, they acted in the utmost good faith reliance upon
a state statutory scheme so similar to one upheld by the
Supreme Court that Court could not find it
unconstitutional without overruling its prior decision. To
suggest Defendants’ conduct was “unlawful” or even
wrong while it was in accordance with state law and
Supreme Court precedent would undermine basic
principles of equity and fairness. The good-faith defense
prevents that injustice here.
II. Availability of Retrospective Monetary Relief for
Conduct Previously Authorized by the Supreme
Court
The Court also agrees with the Northern District of
California’s observation “there is a strong argument that
when the highest judicial authority has previously
deemed conduct constitutional, reversal of course by that
judicial authority should never, as a categorical matter,
result in retrospective monetary relief based on that
conduct.” Hough, 2019 WL 1274528, at *1. That court

63a
suggested “in situations where the Supreme Court has
reversed a prior ruling but not specified that the party
before it is entitled to retrospective monetary relief, it
seems unlikely that lower courts should even consider
awarding retrospective monetary relief based on conduct
the Court had previously authorized.” Id.
This line of reasoning is deeply persuasive to this
Court. It is buoyed, moreover, by the Supreme Court’s
statement in Janus that although “the loss of payments
from nonmembers may cause unions to experience
unpleasant transition costs in the short term” those
“disadvantages” had to be weighed “against the
considerable windfall that unions have received under
Abood for the past 41 years.” 138 S. Ct. at 2485–86.
Although certainly not dispositive, the Supreme Court
does not appear to contemplate the “windfall” being
disgorged, nor the potential that some unions might face
an existential threat from lawsuits such as the present
one. Prudence, equity, and fairness would have counseled the same result even absent the good-faith defense.
III. Plaintiff’s Possible Abood Claim
In the Complaint, Plaintiff separately requests a
refund of “any and all ‘fairshare fees’ ” and “any and all
‘fair-share service fees’ that were spent on political and
ideological expenditures, in violation of Abood and preJanus cases.” (Doc. 1 at 5-6). Defendants have moved to
dismiss this as a separate claim (Doc. 12 at 26-27).
Plaintiff does not directly address this portion of
Defendants’ motion but does include the now-rejected
argument that Defendants must prove compliance with
Abood to establish the good-faith defense against
Plaintiff’s Janus claim. (Doc. 14 at 20). The Court is
uncertain if Plaintiff intended this request to be a

64a
separate claim or rather a more limited request in case
the Court determined there was a good-faith defense
which applied to fair-share fees except where
Defendants failed to show they had complied with Abood.
Either way, the request does not survive. Plaintiff
has not alleged any facts indicating an Abood violation. If
it was intended as an independent claim, the claim lacks
“factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft, 556 U.S. at 678. The claim
therefore would be dismissed under Rule 12(b)(6). If the
request is merely a separate request for damages that
anticipates a potential application of the good-faith
defense, the attempt to acquire any damages fails
because the Court held above that the good-faith defense
bars Plaintiff’s Janus claim in toto.
IV. State-Law Claims
Invoking supplemental jurisdiction, Plaintiff asserts
claims for “conversion, trespass to chattels, replevin,
unjust enrichment, restitution, and any other legal or
equitable cause of action that offers relief” to her. (Doc. 1
at 5). Defendants seek dismissal of these claims, arguing
they are preempted by an Illinois statutory scheme and
that Plaintiff has failed to state the elements of the
various asserted claims because the fair-share fees were
authorized. (Doc. 12 at 24-25). Defendants further argue
the state law claims have been abandoned by Plaintiff’s
failure to defend them in her response. (Doc. 18 at 2 n.1).
The Court declines the invitation to reach these
claims. “The supplementaljurisdiction statute provides
that the district court ‘may decline to exercise
supplemental jurisdiction’ over state-law claims if the
court ‘has dismissed all claims over which it has original

65a
jurisdiction.’ ” RWJ Mgmt. Co., Inc. v. BP Prods. N.
Am., Inc., 672 F.3d 476, 479 (7th Cir. 2012) (quoting 28
U.S.C. § 1367(c)(3)). “Indeed, when the federal claims
are dismissed before trial, there is a presumption that
the court will relinquish jurisdiction over any remaining
state law claims.” Dietchweiler ex rel. Dietchweiler v.
Lucas, 827 F.3d 622, 630–31 (7th Cir. 2016). There are
three circumstances which may rebut the presumption:
(1) the statute of limitations has run on the
pendent claim, precluding the filing of a
separate suit in state court; (2) substantial
judicial resources have already been
committed, so that sending the case to another
court will cause a substantial duplication of
effort; or (3) when it is absolutely clear how the
pendent claims can be decided.
Sharp Elecs. Corp. v. Metro. Life Ins. Co., 578 F.3d 505,
514–15 (7th Cir. 2009) (internal quotation marks and
citation omitted).
No claims remain over which this Court has original
jurisdiction. There is no statute of limitations issue which
the Court is aware of, and the Court has not expended
substantial resources such that a duplication of effort
would occur in state court. And while Defendants have
made strong arguments in favor of the dismissal of the
pendent claims, the Court does not believe it is
“absolutely clear” that all of the various state theories of
liability alleged are preempted or require a wrongful or
unauthorized taking.7 In accordance with the presump7.

The Court is skeptical that abandonment applies to the failure
to respond to an argument in a motion to dismiss where the mo(continued…)

66a
tion, the Court declines to exercise supplemental
jurisdiction over Plaintiff’s state law claims.
CONCLUSION
Defendants’ Motion to Dismiss (Doc. 11) is
GRANTED in part as a motion under Rule 12(b)(6) and
in part construed as a motion for judgment on the
pleadings under Rule 12(c). Plaintiff’s Janus claim is
DISMISSED WITH PREJUDICE. To the extent Plaintiff sought to plead a claim under Abood, it is
DISMISSED WITHOUT PREJUDICE. Plaintiff may
replead the Abood claim within twenty-one (21) days of
the date of this Order. However, to ensure expedient
handling of this matter, Plaintiff MUST submit a notice
within seven (7) days of the date of this Order indicating
whether she intends to replead the Abood claim; if not,
the matter will be terminated and judgment entered.
Plaintiff’s various and sundry state law claims are
DISMISSED WITHOUT PREJUDICE.
SO ORDERED.
Entered this 11th day of April 2019.
s/ Joe B. McDade
JOE BILLY McDADE
United States Senior District Judge
vant bears the burden, given that the caselaw cited by Defendants discusses failure to respond to motions for summary judgment and failure to raise arguments in appellant’s briefs on appeal. (Doc. 18 at 2 n.1 (citing Palmer v. Marion Cty., 327 F.3d
588, 597–98 (7th Cir. 2003)). But there is no need to address the
issue here.

67a
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
December 12, 2019
Before
DIANE P. WOOD, Chief Judge
DANIEL A. MANION, Circuit Judge
ILANA D. ROVNER, Circuit Judge
No. 19-1774

Appeal from the United
States District Court for
STACEY MOONEY,
the Central District of
Plaintiff-Appellant, Illinois.
v.

No. 1:18-cv-1439

ILLINOIS EDUCATION
ASSOCIATION, et al.,
Joe Billy McDade,
Defendants-Appellees. Judge.
ORDER
Plaintiff-appellant filed a petition for rehearing and rehearing en banc on November 19, 2019. No judge in regular active service has requested a vote on the petition
for rehearing en banc, and all members of the original
panel have voted to deny panel rehearing. The petition
for rehearing en banc is therefore DENIED.

